IN THE

antpretne Court of tije tiniteb 6tate5
)
)
)
)
)
)
)
)
)
)
)

GERSON IRVING FOX,
Petitioner.
v.
ELISSA MILLER,
CHAPTER 7 TRUSTEE
Respondent.

No.
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
Ninth Circuit

AFFIDAVIT OF SERVICE
As required by Supreme Court Rule 29, I, John Narcise, of lawful age, being duly sworn,
upon my oath state that I did, on February 27, 2020, serve the Petition for a Writ of Certiorari in
the above-captioned matter upon:
Leonard M. Shulman, Esq.
Ryan D. O'Dea, Esq.
SHULMAN HODGES & BASTIAN LLP
100 Spectrum Center Drive, Suite 600
Irvine, California 92618
Telephone: (949) 340-3400
Facsimile: (949) 340-3000
Attorneys for Respondent, Elissa Miller,
Chapter 7 Trustee

Office of The United States Trustee
do Solicitor General of the United States
Department of Justice
950 Pennsylvania Ave., N.W.
Room 5616
Washington, D.C. 20530-0001

by depositing three (3) copies of same, addressed to each individual respectively, and
enclosed in an envelope or package provided by FedEx, a third-party commercial carrier, for
delivery within three (3) calendar days. I placed the envelope or package for collection and
delivery at an office or a regularly utilized drop box of FedEx or delivered such document to a
courier or driver authorized by FedEx to receive documents.
All parties required to be served have been served.
I declare under penalty of perjury under the laws of the United States of America that the
foregoing is true and correct. Executed on February 27, 2020, at Los Angeles, California.
By:
JOHN NARCISE
11400 W. Olympic Blvd.,. 9th Floor
Los Angeles, California 90064

3996336.1

who signed the
A notary public or other officer completing this certificate verifies only the identity of the individual
.
document
that
of
validity
or
accuracy,
ss,
truthfulne
the
not
and
document to which this certificate is attached,

State of California
County of Los Angeles

ANDREA IRENE PARISI
Notary Public - California
z
f,
L6s Angeles County
Commission # 2173680
My Comm. Expires Nov 25, 2020

3996336.1

Subscribed and sworn to (or affirmed) before
me on this arr) day of February, 2020,
by John Narcise, proved to me on the basis of
satisfactory evidence to be the person who
appeared before me.
Signature
Notary Public

